■')

)

■'ozmt-hb
Supjss/His CCWZTOf’Tyjs (Jj^^TS-p OHTfSS

u

l&MQH lO-fiLL
^efriidh&r
\rs.
SuPBBxtfikHpetrf M
•>

IT-LmZcLH:

T
s

LfiM

a

j

}ot-a!t

ISsSp^n dents ^

E
(

j

A

Case: 20-1126

Document: 6-1

Page: 1

Date Filed: 07/01/2020

BLD-220
June 11, 2020
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-1126
RAMON WALL, Appellant
v.

SUPERINTENDENT LAUREL HIGHLANDS SCI; ET AL.
(E.D. Pa. No. 2-16-cv-06273)

Present:

AMBRO, GREENAWAY, JR., and BIBAS, Circuit Judges

Submitted are
(1)

Clerk’s suggestion of dismissal due to a jurisdictional defect; and

(2)

Appellant’s request for a certificate of appealability under 28 U.S.C.
§ 2253(c)(1)

in the above-captioned case.
Respectfully,
Clerk
________________ORDER_________________________________
The foregoing appeal is dismissed for lack of appellate jurisdiction. A notice of appeal
in a civil case in which the United States is not a party must be filed within 30 days after
entry of the judgment or order appealed from. Fed. R. App. P. 4(a)(1)(A). This statutory
time limit for taking an appeal is “mandatory and jurisdictional.” Bowles v. Russell. 551
U.S. 205, 209 (2007) (quoting Griggs v. Provident Consumer Discount Co.. 459 U.S. 56,
61 (1982) (per curiam)). Appellant’s notice of appeal, dated January 9, 2020, was filed 363
days after the District Court’s order denying his habeas petition, which was issued on January 11, 2019. See Houston v. Lack. 487 U.S. 266, 276 (1988). Appellant did not seek in
the District Court to extend or reopen the time to file an appeal pursuant to Federal Rule of
Appellate Procedure 4(a)(5) or (6). Accordingly, Appellant's appeal is untimely and must
be dism issed for lack of appellate jurisdiction.
In light of this disposition, we do not reach the question whether to issue a certificate
of appealability in this case.

£x. A

*.

Case: 20-1126

Document: 6-1

Page: 2

Date Filed: 07/01/2020

By the Court,
s/Stehhanos Bibas
Circuit Judge
Dated: July 1, 2020
PDB/cc: Ramon Wall
Max C. Kaufman, Esq
A. True Copy:^°

<*0. £«-<^e:*4^4aU3

L.UK.

.&

Patricia S. Dodszuweit, Clerk
Certified Order Issued in Lieu of Mandate

Case 2:16-cv-06273-NIQA Document 29 Filed 01/11/19 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
RAMON WALL
Petitioner-pro se

CIVIL ACTION
NO. 16-6273

v.
MS. LUTHER, et aL
Respondents

ORDER
AND NO W, this 11th day of J anuary 2019, upon careful consideration of the pro se petition
for writ of habeas corpus, (the “Petition”), filed by Petitioner Ramon Wall (“Petitioner”) pursuant
to 28 U.S.C. §2254, [ECF 1], the response filed by Respondents, [ECF 14]; the reply filed by
Petitioner, [ECF 20], the Report and Recommendation (the “R&R”) issued on August 23, 2018,
by the Honorable David R. Strawbridge, United States Magistrate Judge (the “Magistrate Judge”),
which recommended that the Petition be denied, [ECF 22], Petitioner’s pro se objections to the
R&R, [ECF 28], the pleadings, and the available state court record and, after conducting an
independent de novo review of the objections, it is hereby ORDERED that:
1.

The Report and Recommendation is APPROVED and ADOPTED;

2.

The objections filed are without merit and are OVERRULED; l

In his habeas corpus petition, Petitioner asserted four grounds for relief: (1) that his conviction
violates his Fourth Amendment rights because the police had no basis to arrest him; (2) that his procedural
due process rights under the Fourteenth Amendment were violated by various acts of the PCRA court; (3)
that his Fifth Amendment rights were violated due to perceived defects in the indictment and/or proof
underlying the witness intimidation charge; and (4) that his conviction violated his Sixth Amendment rights
of confrontation, that his plea bargain improperly reflected a mandatory minimum sentence, and that trial
counsel was ineffective for failing to investigate the Commonwealth’s evidence and for allegedly lying
about a colloquy having taken place. In the twenty-three page R&R, the Magistrate Judge addressed these
contentions and found that all of Petitioner’s claims were either procedurally defaulted, non-cognizable, or
lacked merit.
In his objections to the R&R, Petitioner essentially concedes that the Magistrate Judge correctly
found that many of his claims were procedurally defaulted but repeats his argument that the procedural

Case 2:16-cv-06273-NIQA Document 29 Filed 01/11/19 Page 2 of 2

3.

Petitioner’s petition for a writ of habeas corpus, [ECF 1], is DENIED; and

4.

No probable cause exists to issue a certificate of appealability.2

The Clerk of Court is directed to mark this matter CLOSED.
BY THE COURT:

/s/ Nitza /, Quinones Alejandro_______
NITZAI. QUINONES ALEJANDRO
Judge, United States District Court

default of these claims can be overcome because trial counsel provided ineffective assistance. In making
his claim for ineffective assistance of counsel as an objection, however, Petitioner merely repeats and
rehashes arguments he made in his Petition which were considered and properly rejected by the Magistrate
Judge. As such, Petitioner’s objections are nothing more than an attempt to re-Iitigate various arguments
raised in his Petition and reply. This Court finds that the Magistrate Judge thoroughly reviewed each of
these arguments in the R&R and correctly concluded that Petitioner’s claims were non-cognizable,
procedurally defaulted, and/or without merit. This Court has reviewed the pertinent portions of the record
de novo and further finds that no error was committed by the Magistrate Judge in the analysis of Petitioner’s
claims. Accordingly, the R&R is adopted and approved in its entirety, and Petitioner’s objections are
overruled.
2
A district court may issue a certificate of appealability only upon “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c). A petitioner must “demonstrate that reasonable
jurists would find the district court’s assessment of the constitutional claims debatable or wrong.” Slack v.
McDaniel, 529 U.S. 473, 484 (2000); Lambert v. Blackwell, 387 F.3d 210, 230 (3d Cir. 2004). For the
reasons set forth, this Court concludes that no probable cause exists to issue such a certificate in this action
because Petitioner has not made a substantial showing of the denial of any constitutional right. Petitioner
has not demonstrated that reasonable jurists would find this Court’s assessment “debatable or wrong.”
Slack, 529 U.S. at 484. Accordingly, there is no basis for the issuance of a certificate of appealability.
2

Case 2:16-cv-06273-NIQA Document 22 Filed 08/23/18 Page 1 of 23

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
RAMON WALL,
Petitioner,

CIVIL ACTION

v.
MS. LUTHER, et. al.
Respondents.

NO. 16-6273

REPORT AND RECOMMENDATION
DAVID R. STRAWBRIDGE
UNITED STATES MAGISTRATE JUDGE

August 23,2018

Before the Court for Report and Recommendation is the pro se petition of Ramon Wall, a
prisoner incarcerated at SCI-Highlands in Somerset, Pennsylvania, for the issuance of a writ of
habeas corpus filed pursuant to 28 U.S.C. § 2254.1 Wall is serving a sentence of imprisonment
of 5 to 10 years as a result of his negotiated guilty plea to a charge of aggravated assault. He
seeks habeas relief on four grounds encompassing a number of individual claims, several of
which are non-cognizable or procedurally defaulted and one of which was rejected on its merits
in state court. For the reasons that follow, we recommend that the petition be denied and
dismissed.

i

Although Wall is not confined within the Eastern District of Pennsylvania, venue is proper here
pursuant to 28 U.S.C. § 2241(d) in that his confinement grew out of a prosecution and conviction
in a Court of Common Pleas within the district.

Case 2:16-cv-06273-NIQA Document 22 Filed 08/23/18 Page 2 of 23

I.

FACTUAL AND PROCEDURAL BACKGROUND2
The conduct that gave rise to the conviction that Wall challenges in this petition occurred

on March 1, 2013 but was the latest in a series of domestic violence incidents between Wall and
Chemyra Johnson. She did not pursue the charges in court the first time she had him arrested.
Following an incident in February 2012, however, when Wall again physically assaulted Ms.
Johnson and then called her the next day, threatening to hurt her again, she pressed and pursued
charges against him. Wall entered a guilty plea in July 2012 to a charge of stalking, for which he
was sentenced to a term of imprisonment of 6 to 23 months. Within a few months of his release
on parole, Wall got into another altercation with Ms. Johnson on February 26, 2013 that
prompted Ms. Johnson to obtain a temporary restraining order on February 28, 2013.
That protection from abuse (“PFA”) case was listed for a hearing on March 1, 2013, but
Ms. Johnson was too afraid to serve notice of it on Wall and it appears that neither of them
attended the hearing. See Resp. at Exs. B, I (ECF Docs. 14-2, 14-9). Rather, Ms. Johnson went
to work on March 1, where she received a number of phone calls from Wall, who believed that
her shift was to have ended earlier and feared that she may have been cheating on him. He
confronted her in person on a public street, cursed at her loudly, slapped her multiple times, and

2 In preparing this Report, we reviewed: Wall’s habeas petition submitted on December 1, 2016
(“Pet.”); the Response in opposition to the petition filed by the Philadelphia District Attorney’s
Office on April 24, 2017, with appended exhibits (“Resp.”); and Wall’s Reply docketed on
September 7, 2017 (“Pet’r Reply”). We also consulted and have utilized the notes of testimony
from Wall’s guilty plea hearing (“N.T., 6/10/13”) and his PCRA petition, which were available
in the state court record received from the Prothonotary of the First Judicial District; the criminal
docket for Case No. CP-5l-CR-0005311-2013; the discovery for Case No. MC-51-CR-00086302013, which was provided to Petitioner during PCRA review; the July 10, 2015 opinion of the
PCRA Court (“PCRA Ct. Opin.”); and the Superior Court’s June 17, 2016 decision following
Wall’s appeal of the PCRA Court’s decision (“Pa. Super. Ct. Opin.”).

2

Case 2:16-cv-06273-NIQA Document 22 Filed 08/23/18 Page 3 of 23

shoved her head into a metal gate. They then returned to Ms. Johnson’s apartment, where the
abuse continued. Wall barged in on Ms. Johnson in the bathroom and, while she was sitting on
the toilet, began choking her. He told her that the only way she was going to be free of him was
when one of them died. When Wall left the room, she placed a call to police. Wall’s response to
the arrival of the police was to turn off all of the lights and order Ms. Johnson to remove all of
her clothes in the bedroom so that he could try to have sexual intercourse with her and so that it
would appear that any disturbance was attributed to their intimacy. After the police obtained
access to the apartment through the landlord, they entered the bedroom and arrested Wall. See,
e.g., N.T. 6/10/13 at 6-7. His new arrest put him in violation of the terms of his probation from
his 2012 case.3
The following month, while Wall was detained and awaiting trial, he sent Ms. Johnson a
letter in which he threatened to “break [her] mouth for being [sic] on [him] to the police about
these crazy a[—] charges.” (Resp. at Ex. A.) Believing that she had been unfaithful to him with
another man, he also threatened to “break [their] f[—] faces in places,” among other things. (Id.)
In accordance with the policies of the District Attorney’s office at that time in cases where there
had been or were feared to be threats or intimidation, the case was presented to a grand jury. The
grand jury returned an eleven-count indictment on April 18, 2013 charging him with aggravated
assault, attempted rape, attempted sexual assault, unlawful restraint, terroristic threats, simple

3

Following his conviction in the 2013 case, Wall was brought in for a violation of probation
hearing on the 2012 case. He was sentenced to a term of three to six years state incarceration, to
run consecutive to the sentence imposed by Judge Brinkley in this case. See N.T. 7/11/13 at 3031, Case No. CP-51-CR-0006889-2012 [ECF Doc. 14-4.]

3

Case 2:16-cv-06273-NIQA Document 22 Filed 08/23/18 Page 4 of 23

assault, recklessly endangering another person, and indecent assault. In light of the indictment,
Wall’s case was not scheduled for a preliminary hearing.
Geoffrey Kilroy, Esquire, from the Defender Association of Philadelphia, who had
represented Wall in the 2012 case, entered his appearance in this case as well. Wall faced a
possible aggregate sentence of as much as 53 to 106 years if convicted and sentenced
consecutively on these charges. See Resp. at 21-22. The Commonwealth offered to drop the ten
remaining charges if Wall agreed to plead guilty to the one count of aggravated assault and
accept a 5- to 10-year prison sentence. Wall agreed. At the plea hearing on June 10, 2013, the
Honorable Genece E. Brinkley confirmed with Wall that he was satisfied with Attorney Kilroy’s
representation (N.T. 6/10/13, at 3); that he reviewed his written guilty plea form with Attorney
Kilroy prior to the hearing, (id. at 4); that Attorney Kilroy explained to him the maximum
possible penalty that could be imposed against him, (id.); and that he pled guilty from his own
free will (id. at 5). Judge Brinkley explicitly asked Wall if he was “pleading guilty because [he
was], in fact, guilty,” to which Wall responded, “yes.” (Id. at 8.) The prosecutor then read a
summary of what Ms. Johnson’s testimony would have been at trial. Judge Brinkley asked Wall
if that was “basically what happened,” to which Wall responded affirmatively. (Id.) The court
accepted Wall’s guilty plea and imposed the agreed-upon sentence. Wall did not file a direct
appeal of his conviction.
Almost four months later, however, on December 3, 2013, Wall filed a pro se petition
under Pennsylvania’s Post Conviction Relief Act, 42 Pa. Cons. Stat. §§ 9541-9546 (“PCRA”).
He alleged that he was entitled to post-conviction relief due to ineffective assistance of counsel
and contended that his guilty plea was unlawfully induced. (PCRA Pet., 12/3/13, at 2.) He

4

Case 2:16-cv-06273-NIQA Document 22 Filed 08/23/18 Page 5 of 23

attached to his petition a 19-page factual account of his version of the March 1 events that
explained why he believed he was innocent of aggravated assault. (Id. at 3-19.)
The PCRA Court appointed counsel, who filed a Finley letter4 on March 19, 2015
expressing his view that there was no merit to Wall’s petition, as there was a factual basis for his
plea and the sentence imposed was lawful. The PCRA Court issued a notice on May 5, 2015
pursuant to Pa. Crim. Proc. Rule 907 informing Wall of its intention to dismiss his PCRA
petition for the reasons stated in counsel’s Finley letter. Wall filed a timely response to the Rule
907 notice, but on June 3, 2015, the PCRA Court dismissed the petition.
Wall filed a timely appeal of the dismissal of the petition and proceeded pro se. He
complained that: (1) the PCRA court improperly withheld discovery from him, (2) he was
subjected to prosecutorial misconduct when the prosecutor did not dismiss the charges against
him where he believed the evidence did not establish a prima facie case of aggravated assault,
and (3) Attorney Kilroy ineffectively failed to investigate evidence and witnesses, file a motion
to dismiss, and file pretrial motions. Pa. Super. Ct. Opin. at 1-2. The Superior Court found that
the PCRA Court furnished Wall with the documents he requested; that he had waived any claim
of prosecutorial misconduct or any claim about the sufficiency of the evidence as to aggravated
assault; and that the PCRA Court properly concluded that Wall knowingly and voluntarily
entered his guilty plea such that defense counsel could not have been ineffective. Id. at 2-3.

4 In Commonwealth v. Finley, the Superior Court established procedures pursuant to which
counsel could be permitted to withdraw from the representation of a PCRA petitioner. Finley,
550 A.2d 213, 214 (Pa. Super. Ct. 1988). Counsel must provide the court with a “no-merit letter,”
which must detail the nature and extent of counsel’s review of the petition, list each issue that
petitioner wishes to have reviewed, and explain why the issues are meritless. Id. at 215.

5

Case 2:16-cv-06273-NIQA Document 22 Filed 08/23/18 Page 6 of 23

Wall sought review in the Pennsylvania Supreme Court but that court denied his petition on
October 24, 2016.
Wall submitted his pro se habeas petition to this Court on November 27, 2016, setting
forth four grounds for habeas relief that raised a host of sub-claims. The Philadelphia District
Attorney’s Office filed a response on April 24, 2017, contending that his petition should be
dismissed with prejudice, as his reviewable claims were reasonably rejected by the state courts
and the vast majority of the claims asserted were defaulted and unreviewable because they were
never properly raised in state court proceedings. Resp. at 3. Wall filed a reply to the District
Attorney’s response on September 7, 2017, reiterating the particulars of his grounds for relief
and pointing to the portions of the record that presumably support his contentions. Pet’r Reply at
ECF pp. 2-9.
II.

LEGAL STANDARDS
Before we discuss Wall’s particular claims, we first describe four doctrines that will

guide our evaluation of his petition. We first address the question of what claims are cognizable
on federal habeas review of a state court conviction.

We then briefly set out the legal

requirements pertaining to Wall’s obligation to exhaust available state court remedies as to his
claims and the consequences of a failure to do so. We also describe the constraints upon a
federal court reviewing claims adjudicated on the merits in the state court. Finally, inasmuch as
several of Wall’s claims implicate the Sixth Amendment right to counsel, we describe the
standard under which such claims are evaluated.
A.

Cognizable claims vs. claims arising from collateral review

This Court’s authority to grant habeas relief to “a person in custody pursuant to the
judgment of a State court” is limited to situations in which the “custody [is] in violation of the
Constitution or laws or treaties of the United States.” 28 U.S.C. § 2254(a). See also 28 U.S.C.
6

Case 2:16-cv-06273-NIQA Document 22 Filed 08/23/18 Page 7 of 23

§ 2241(c)(3). In Wall’s case, the “judgment of [the] State court” pursuant to which he is in
custody is the conviction that followed upon his 2013 negotiated guilty plea for aggravated
assault, the judgment of which became final upon the expiration of the time in which to file a
direct appeal. By contrast, alleged errors in collateral proceedings do not themselves provide a
basis for habeas relief from the original conviction. As our court of appeals has noted, “[i]t is the
original trial that is the ‘main event’ for habeas purposes.” Lambert v. Blackwell, 387 F.3d 210,
247 (3d Cir. 2004). For this reason, claims on habeas review that are premised upon events in
the PCRA proceedings are non-cognizable. See, e.g., George v. Lamas, No. ll-cv-1462, 2012
WL 4506077, *10 (M.D. Pa. Oct. 2, 2012) (finding petitioner’s argument that PCRA process was
defective to be non-cognizable on habeas); Parker v. Kerestes, Civ. No. 10-7262, 2012 WL
676984, *3 (E.D. Pa. Feb. 29, 2012) (concluding that even if PCRA Court erred in adjudicating
claims without holding an evidentiary hearing, habeas relief was unavailable). Cf Lambert, 387
F.3d at 247 (noting that error in state collateral proceeding “may affect the deference owed to the
state court’s findings under 28 U.S.C. §§ 2254(d) and 2254e(l)).”
The Third Circuit explained this concept comprehensively in 1998 in Hassine v.
Zimmerman, 160 F.3d 941 (3d Cir. 1998), when it rejected the contention that delay in
processing of a collateral petition could justify habeas relief:
The federal courts are authorized to provide collateral relief where
a petitioner is in state custody or under a federal sentence imposed
in violation of the Constitution or the laws or treaties of the United
States. 28 U.S.C. §§ 2254, 2255. Thus, the federal role in
reviewing an application for habeas corpus is limited to evaluating
what occurred in the state or federal proceedings that actually led
to the petitioner’s conviction; what occurred in the petitioner’s
collateral proceeding does not enter into the habeas calculation.

7

Case 2:16-cv-06273-NIQA Document 22 Filed 08/23/18 Page 8 of 23

Hassine, 160 F.3d at 954-55 (emphasis added). Congress also has made clear that habeas relief
is unavailable to state prisoners for a claim that their detention arises from any alleged deficient
performance of counsel in state post-conviction review:
The ineffectiveness or incompetence of counsel during Federal or
State collateral post-conviction proceedings shall not be a ground
for relief in a proceeding arising under section 2254.
28 U.S.C. § 2254(/).
B.

Exhaustion and procedural default

Assuming that a claim is cognizable on federal habeas review, relief is ordinarily
available only for a claim where the petitioner has exhausted the corrective processes available in
the state courts. See 28 U.S.C. § 2254(b)(1). It has long been recognized that a petitioner
satisfies this obligation and gives the state courts a full and fair opportunity to resolve a federal
constitutional claim only when he “fairly presents” his claim in “one complete round of the
state’s established appellate review process.” O’Sullivan v. Boerckel, 526 U.S. 838, 845 (1999).
Where a claim was not properly presented to the state court, the petitioner is considered
to have defaulted that claim. See, e.g., Coleman v. Thompson, 501 U.S. 722, 749 (1991). Such a
claim cannot provide a basis for federal habeas relief unless the petitioner can show “cause for
the default and actual prejudice as a result of the alleged violation of federal law, or [unless he]
demonstrates that failure to consider the claims will result in a fundamental miscarriage of
justice.” Id. at 750. See also Teague v. Lane, 489 U.S. 288, 308 (1988) (plurality opinion);
Wainwright v. Sykes, 433 U.S. 72 (1976). To establish cause, the petitioner must show “that
some objective factor external to the defense impeded [his] efforts to comply with the State’s
procedural rule” in the presentation of the claim to the state court. Murray v. Carrier, All U.S.
478, 488 (1986). The fundamental miscarriage of justice exception requires that the petitioner

8

Case 2:16-cv-06273-NIQA Document 22 Filed 08/23/18 Page 9 of 23

supplement his claims with a “colorable showing of factual innocence” in order to obtain review
of the defaulted constitutional claim. McCleskey v. Zant, 499 U.S. 467, 495 (1991).
C.

Standards for state-adjudicated claims

Where a cognizable federal claim presented in the federal habeas petition was properly
presented to and adjudicated on the merits in the state courts, the federal court may grant habeas
relief only if adjudication:
(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the
State court proceeding.
28 U.S.C. § 2254(d).
A writ may issue under the “contrary to” clause of Section 2254(d)(1) only if the “state
court applies a rule different from the governing rule set forth in [United States Supreme Court]
cases or if [the state court] decides a case differently than [the United States Supreme Court has]
done on a set of materially indistinguishable facts.” Bell v. Cone, 535 U.S. 685, 694 (2002). A
writ may issue under the “unreasonable application” clause only where there has been a correct
identification of a legal principle from the Supreme Court but the state court “unreasonably
applies it to the facts of the particular case.” Id. This standard requires the petitioner to
demonstrate that the state court’s analysis was “objectively unreasonable.” Woodford v. Visciotti,
537 U.S. 19, 25 (2002).
D.

Ineffective assistance of counsel: the Strickland standard

The Supreme Court employs the two-prong test announced in Strickland v. Washington,
466 U.S. 668 (1984), to determine if a defendant was deprived of his right to counsel as
guaranteed by the Sixth Amendment. Pursuant to Strickland, a defendant who raises claims

9

Case 2:16-cv-06273-NIQA Document 22 Filed 08/23/18 Page 10 of 23

based on the ineffective assistance of his counsel must prove that (1) “counsel’s representation
fell below an objective standard of reasonableness,” and (2) there is “a reasonable probability
that, but for counsel’s unprofessional errors, the result of the proceeding would have been
different.” Id. at 688, 694.
To satisfy the first prong of the Strickland test, a defendant must show that “counsel
made errors so serious that counsel was not functioning as the ‘counsel’ guaranteed the
defendant by the Sixth Amendment.”

Id. at 687.

In evaluating counsel’s performance, a

reviewing court should be “highly deferential” and must make “every effort ... to eliminate the
distorting effects of hindsight, to reconstruct the circumstances of counsel’s challenged conduct,
and to evaluate the conduct from counsel’s perspective at the time.” Id. at 689. Moreover, there
is a “strong presumption that counsel’s conduct falls within the wide range of reasonable
professional assistance; that is, the defendant must overcome the presumption that, under the
circumstances, the challenged action ‘might be considered sound trial strategy.’” Id.
To satisfy the second prong of the Strickland test, the defendant must show “there is a
reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding
would have been different.” Id. at 694. “A reasonable probability is a probability sufficient to
undermine confidence in the outcome” of the proceeding. Id. It follows that counsel cannot be
ineffective for failing to pursue meritless claims or objections.

See, e.g., United States v.

Sanders, 165 F.3d 248, 253 (3d Cir. 1999); United States v. Fulford, 825 F.2d 3, 9 (3d Cir. 1987).
III.

DISCUSSION
Wall seeks habeas relief on four grounds. In Ground One, he claims that his conviction

violates his Fourth Amendment rights, as he believes police had no basis to arrest him. Pet. at
ECF p. 5.

In Ground Two, he contends that his right under the Fourteenth Amendment to

procedural due process was violated in several respects. Id. at ECF pp. 7-8. Wall asserts in

10

Case 2:16-cv-06273-NIQA Document 22 Filed 08/23/18 Page 11 of 23

Ground Three that his Fifth Amendment rights were violated due to what he perceived as defects
in the indictment or proof of the witness intimidation charge. Id. at ECF p. 10. Finally, in
Ground Four, Wall argues that his conviction violated his Sixth Amendment rights in that he
never faced his accuser, he believes his plea bargain improperly reflected a mandatory minimum
sentence, and he believes that trial counsel

ineffectively failed to investigate the

Commonwealth’s evidence and allegedly lied about a colloquy having taken place. Id. at ECF
pp. 11-12.5
As we explain below, we conclude that his assertions in Ground One are non-cognizable
claims for our review. We have also found that many of the claims asserted in Grounds Two
through Four are procedurally defaulted. As to those claims that remain in Ground Two, we
found them to be non-cognizable, those that remain in Ground Three are without merit, and those
that remain of Ground Four were reasonably rejected by the state courts.
A.

Ground One, asserting that Wall’s Fourth Amendment rights were violated,
is non-cognizable.

In Ground One of his habeas petition, Wall asserts that his Fourth Amendment rights
were violated due to: (1) the alleged absence of a circumstantial basis for his arrest, (2) the
alleged absence of any apparent injury to Ms. Johnson; (3) the lack of service on him of the PFA
order involving Ms. Johnson; and (4) Ms. Johnson’s alleged failure to appear at the PFA hearing
or to ensure that Wall was brought to the hearing. Pet. at ECF p. 5. See also Pet’r Reply at ECF

5 Wall’s reply brief addresses the four grounds of his petition. Unfortunately, he employed in
that document a different numbering system that did not correspond with how his claims were
laid out in his original habeas petition. His reply addresses first the claim described in his
petition as Ground Four, then discusses the claim described in his petition as Claim One,
followed by Claim Three and then Claim Two.

11

Case 2:16-cv-06273-NIQA Document 22 Filed 08/23/18 Page 12 of 23

pp. 4-5. We construe these assertions to reflect a claim that the arrest on March 1, 2013 violated
Wall’s Fourth Amendment rights in that the police allegedly lacked sufficient evidence to arrest
him where Ms. Johnson did not appear to be injured and where Wall believes the PFA order was
not properly obtained or served on him.
It is well established that where a habeas petitioner had an opportunity for full and fair
litigation of a Fourth Amendment challenge to actions taken by the police, habeas relief is not
available following his conviction on the ground that evidence obtained in an unconstitutional
search or seizure was introduced at his trial. Stone v. Powell, 428 U.S. 465, 492 (1976). Here,
Wall had an opportunity in state court for a full and fair litigation of any Fourth Amendment
claim he wished to assert. He opted, however, to plead guilty to aggravated assault, waiving his
opportunity to challenge any actions of the police regarding his arrest and stipulating to the
sufficiency of the evidence supporting the single charge of which he was convicted: aggravated
assault. See N.T. 6/10/13 at 8 (guilty plea hearing). Therefore, Wall’s Fourth Amendment claim
asserted here as Ground One is non-cognizable on habeas review and his assertions do not
otherwise state a claim under the Constitution or federal laws and treaties.
B.

Ground Two, asserting that Wall’s Fourteenth Amendment rights were
violated, contains claims that are procedurally defaulted and non-cognizable.

Wall asserts in Ground Two of his petition that his Fourteenth Amendment procedural
due process rights were violated in seven different respects. His assertions touch upon perceived
deficiencies in the evidence presented by the Commonwealth and in compliance with discovery
obligations but primarily concern issues and procedures that arose during PCRA proceedings,
finding fault with all levels of the state court system. We address each assertion in turn.
Wall first contends that he was denied procedural due process where the state court
“[d]en[ied] PCRA counsel’s motion to receive grand jury’s notes of testimony (e.g. status

12

Case 2:16-cv-06273-NIQA Document 22 Filed 08/23/18 Page 13 of 23

hearings of 4-8-13 & 4-22-13), and had failed to send order ordering statements for issues raised
on appeal by (trial judge)[.]” Pet. at ECF p. 7. We understand this assertion to refer to his
request on PCRA appeal for a copy of the Commonwealth’s discovery, including grand jury
materials.6 To the extent that Wall complains that the PCRA Court did not promptly provide
him with discovery, that claim is non-cognizable for our review, as it implicates Wall’s PCRA
proceedings and not his original conviction. See, e.g., Lambert v. Blackwell, 387 F.3d 210, 247
(3d Cir. 2004) (explaining that “alleged errors in collateral proceedings ... are not a proper basis
for habeas relief from the original conviction”). Wall’s complaint about an alleged defect during
his PCRA proceedings does not provide a basis for habeas relief.
Second, Wall claims that during the PCRA process and after the dismissal of his petition,
Judge Brinkley failed to order him to submit a statement of the errors complained of on appeal
pursuant to Rule 1925(b) of the Pennsylvania Rules of Appellate Procedure. Pet. at ECF p. 7.
This claim is also non-cognizable for our review in that it concerns Wall’s PCRA proceedings,
not the original proceeding that gave rise to his conviction. See Lambert, 387 F.3d at 247.
Therefore, habeas relief is unavailable to Wall on this claim.
Third, he complains that the “initial issuing authority” failed to prepare a transcript and
its original papers pursuant to Pa. R. Crim. Proc. 547(a). Pet. at ECF p. 7. He refers in his reply
brief to excerpts from his state court docket sheets, on which he notes that when he was held for
court and his indictment was filed on April 24, 2013, formal arraignment was scheduled for May

6 The Superior Court ultimately ordered the PCRA Court to provide him with these materials,
which it did on October 26, 2015. (St. Ct. Rec. D-14.) These materials included notes of
testimony from April 22, 2013, when the grand jury indictment was returned. The Municipal
Court docket, 8630-2013, confirms that the case was also called on April 8, 2013, but no
transcript of that proceeding or listing is included in the state court record.

13

Case 2:16-cv-06273-NIQA Document 22 Filed 08/23/18 Page 14 of 23

13, 2013 but was later cancelled. Pet’r Reply at 70. We are unsure what he means by this, but at
most he complains of defects in state proceedings that would have been waived by his guilty plea.
Thus, we are satisfied that these allegations fail to show that he is currently in custody due to a
violation of the Constitution.
Fourth, Wall contends that the district attorney “failed to produce competent evidence
concerning [sic] allege accusations / allegations” prior to or during “the pre-trial conference
hearing[,]” which he dates to June 3, 2013. Pet. at ECF p. 8. His reply brief lists a number of
items of evidence that he believes was not produced when it should have been. Pet’r Reply at
ECF p. 8. Again, this claim appears to have no bearing on the proceeding at which he was
convicted of aggravated assault: his guilty plea hearing of June 10, 2013. Even if it did, Wall
failed to present any challenge in this regard in his state court proceedings when he pursued
PCRA relief. Therefore, this claim is defaulted. He has not demonstrated cause to justify the
default of this claim, and no fundamental miscarriage of justice will result from our failure to
consider this claim where there is no “colorable showing of factual innocence” here. Therefore,
we cannot recommend that Wall be granted habeas relief on this claim.
Fifth, Wall complains of a “failure to provide full and complete pre-trial discovery,”
referencing the Pennsylvania Superior Court order on PCRA review on August 27, 2015. Pet. at
ECF p. 8; Pet’r Reply at ECF p. 9. His claim here relates to the circumstance that, prior to his
trial, grand jury material was shared with his lawyer but that Wall’s access to it was restricted.
Following the withdrawal of appointed PCRA counsel and the initiation of a pro se appeal in the
Superior Court, Wall filed an “Application for Order Mandating Clerk of Courts And/Or Court
Stenographer To F[u]mish Court Records And Transcribed Notes of Testimony in Forma
Pauperis,” requesting that the Superior Court order the PCRA Court to provide him with

14

Case 2:16-cv-06273-NIQA Document 22 Filed 08/23/18 Page 15 of 23

numerous documents. On August 27, 2015, the Superior Court issued an order directing the
PCRA Court to give Wall his requested documents. The PCRA Court confirmed its compliance
with that order on October 26, 2015.7 Therefore, Wall’s claim that he was deprived of any
documents to pursue PCRA relief has no merit, and such a claim would not be cognizable on
habeas review in any event.
Sixth, Wall believes his rights were violated when the Superior Court denied a motion to
compel without issuing a written opinion. Pet. at ECF p. 8. This assertion appears to concern
the circumstance that, after the Superior Court issued the August 27, 2015 order to the PCRA
Court to turn over to Wall the documents he requested that were related to his appeal, Wall filed
on November 16, 2015 a document listed on the docket as an “Application to Compel.” The
Superior Court denied his application on December 9, 2015 in a per curiam order that explained
that Petitioner’s motion was denied without prejudice to his right to raise the issue in his
Appellant brief. See Appeal Dkt. Sheet, No. 1789 EDA 2015, entry of Dec. 9, 2015. Again, this
issue does not implicate his conviction but rather the PCRA process. It thus does not provide a
basis for habeas relief.
Finally, Wall contends that his Fourteenth Amendment rights were infringed upon when
the Supreme Court of Pennsylvania denied his petition for allowance of appeal without issuing
an opinion. Pet. at ECF p. 8. This claim is non-cognizable for the same reasons outlined above:
the “federal role in reviewing an application for habeas corpus is limited to evaluating what
occurred in the state or federal proceedings that actually led to the petitioner’s conviction; what

n

A set of these documents is found in the state court record. Many of them are also appended to
Petitioner’s reply brief.

15

Case 2:16-cv-06273-NIQA Document 22 Filed 08/23/18 Page 16 of 23

occurred in the petitioner’s collateral proceeding does not enter into the habeas calculation.”
Hassine v. Zimmerman, 160 F.3d 941, 954-55 (3d Cir. 1998). Wall’s assertion does not provide
a cognizable claim on habeas review. None of the sub-claims of Ground Two, asserting
violations of his rights to procedural due process, demonstrate that Wall was convicted in
violation of the Constitution.
C.

Ground Three, asserting that Wall’s Fifth Amendment rights were violated,
is procedurally defaulted and without merit.

In Ground Three, Wall sets out several circumstances which he believes establish that his
Fifth Amendment rights were violated.

He claims that Ms. Johnson never alleged any

information that would give rise to a witness intimidation charge, Pet. at ECF p.10, and that, as a
result of this alleged absence of evidence, the district attorney engaged in prosecutorial
misconduct. Pet’r Reply at ECF p. 6. He similarly complains that the district attorney failed to
provide a “substantial basis” to establish witness intimidation. Pet. at ECF p.10. He further
argues that “competent evidence” is required “for alleged accusations,” and that “potential
evidence and witnesses are required to indict properly.” Pet. at ECF p.10. Respondents interpret
these claims as focusing on “the prosecutor’s supposed failure to produce competent evidence
from the victim,” and assert that this ground is “devoid of any factual support” where Ms.
Johnson’s statement to police provided the allegations upon which the charges were based. Resp.
at 19.
We construe Wall’s claim here to be that his Fifth Amendment rights were violated as he
was indicted allegedly without sufficient evidence of witness intimidation. Wall did not raise
this ground for relief in state court and the claim is thus defaulted. Moreover, this claim would
not appear cognizable in these circumstances, as the charge of witness intimidation was

16

Case 2:16-cv-06273-NIQA Document 22 Filed 08/23/18 Page 17 of 23

dismissed as part of the guilty plea and Wall is presently in custody only as a result of a
conviction of aggravated assault. Habeas relief is unavailable to Wall on this claim.
D.

Petitioner’s assertions in Ground Four that his Sixth Amendment rights were
violated due to ineffective assistance of counsel were reasonably rejected by
the state court; other claims asserted as part of Ground Four are
procedurally defaulted.

Wall’s fourth and final claim for habeas relief asserts that his Sixth Amendment rights
were violated due to five enumerated circumstances:
(1) Based upon the Petitioner’s version of the incident, the trial
attorney duty was to investigate the said witnesses and evidence of
the alleged accusations; (2) The trial attorney had legal in fact lied
[sic] about a colloquy and proceeding that never took place for the
Petitioner; (3) I never faced my accuser for any of the alleged
accusations / allegations; (4) Within the plea bargain it was
unconstitutional to offer a mandatory minimum; and (5) The trial
[attorney] duty was to argue the matter and review the discovery
with me.
Pet. at ECF pp. 11-12 (spelling and some punctuation corrected). See also Pet’r Reply at ECF
pp. 2-3 (repeating these assertions). Respondents read Wall’s petition to allege generally that
Attorney Kilroy failed to conduct an appropriate investigation of the Commonwealth’s evidence
and presume him to contend that, if Kilroy had conducted a more thorough investigation, he
would not have advised Wall to enter into the plea agreement. Resp. at 19. See also id. at n.9
(acknowledging that “Petitioner does not specifically allege this, but presumably this argument
provides the basis for his ineffective assistance claim”).

Respondents note that this

ineffectiveness claim was rejected by the state courts on PCRA review. Id. at 19. We proceed to
consider Wall’s allegations in Ground Four both as they relate to the claims he properly
presented to the state courts on PCRA review and as to the assertions that are instead
procedurally defaulted.

17

Case 2:16-cv-06273-NIQA Document 22 Filed 08/23/18 Page 18 of 23

1.

Unexhausted claims

Wall claims that his Sixth Amendment rights were violated as he never “faced” Ms.
Johnson for the allegations made against him. Pet. at ECF p. 12. To the extent Wall seeks to
present this as some sort of claim under the Sixth Amendment Confrontation Clause, we note
that Wall did not present this claim to the state courts as required by 28 U.S.C. § 2254(b)(1) and
it is now procedurally defaulted. As Wall has made no assertions that the default of this claim
can be excused, this aspect of his claim should be dismissed.
Wall’s contention at subsection (4), concerning the propriety of his being offered a
mandatory minimum sentence as part of the plea bargain, is also defaulted, as it was not
presented to the state court. Moreover, this claim is without merit in that he suffered no violation
of any Sixth Amendment rights with respect to the sentence he received. The court imposed an
agreed-upon sentence, which was 5 to 10 years’ imprisonment, followed by 5 years of reporting
probation. See N.T. 6/10/13 at 9. Wall did not receive any sort of mandatory minimum sentence
for this conviction.8 Therefore, this aspect of his claim must also be dismissed.
2.

Exhausted claims

The bulk of Wall’s assertions in Ground Four concern the perceived shortcomings of trial
counsel, Attorney Kilroy, presumably such that either Wall was left with no choice but to plead
guilty or that Kilroy’s recommendation that he plead otherwise amounted to ineffective
assistance of counsel. Pet. at ECF pp. 11-12. On PCRA review, Wall exhausted these claims on

g

Wall’s confusion about a mandatory minimum sentence might have arisen from the notice that
he was given at the conclusion of sentencing, when the prosecutor advised him that his
conviction for a felony of the first degree for a violent offense counted as his “first strike” and
that if he was convicted of another violent felony he faced a mandatory minimum sentence of 10
to 20 years. See N.T. 6/10/13 at 11-12.

18

Case 2:16-cv-06273-NIQA Document 22 Filed 08/23/18 Page 19 of 23

PCRA review when he similarly characterized Attorney Kilroy’s representation as ineffective
assistance of counsel. In his brief on appeal to the Superior Court, he cited counsel’s alleged
failure to investigate evidence and witnesses, to file pretrial motions, to explain the grand jury
rules to him, and to file a motion to dismiss the charges. Pa. Super. Ct. Opin. at 5 (citing Br. for
Appellant at 21-34). See also id. at 2-3 (citing Br. for Appellant at 6.)
In its analysis, the Superior Court recited the proper standard: that Wall bore the burden
of establishing that the challenged course of conduct pursued by counsel did not have some
reasonable basis designed to effectuate the client’s interests and that, but for counsel’s
ineffectiveness, there was a reasonable probability that the outcome of the proceedings would
have been different. Id. at 5. It also recognized that even during a plea negotiation a criminal
defendant has the right to effective representation - advice within the range of competence
demanded of attorneys in criminal cases - such that the client’s entry of a guilty plea is knowing,
voluntary, and intelligent.

As a result, the reviewing court assesses whether attorney

ineffectiveness caused the defendant to enter an involuntary or unknowing plea, looking to
whether a guilty plea colloquy demonstrated that the defendant understood what the plea
connoted and its consequences. See id. at 5-7. This analysis is consistent with the decisions of
the United States Supreme Court. See Hill v. Lockhart, 474 U.S. 52, 59 (1985) (recognizing that
attorney can perform deficiently if he misinforms client such that the plea is not made
knowingly, intelligently, and voluntarily). Pursuant to Supreme Court precedent, the petitioner
establishes prejudice in such cases only where he shows that, absent counsel’s ineffectiveness,
there is a reasonable probability that he would not have taken the plea but instead would have
gone to trial. Id.

19

Case 2:16-cv-06273-NIQA Document 22 Filed 08/23/18 Page 20 of 23

The Superior Court examined Wall’s oral colloquy at the guilty plea hearing conducted
on June 10, 2013 with these principles in mind. As it explained:
At the plea colloquy, Wall stated that he understood the
English language, and that he was not under the influence of
alcohol or drugs. See N.T., 6/10/13, at 3. Wall understood the
charges against him, and admitted to the facts that led to those
charges. Id. at 4, 6-8. Wall also stated that by pleading guilty, he
understood that he was foregoing certain rights, including, inter
alia, the presumption of innocence, the right to a jury trial, and
most of his direct appeal rights. Id. at 4-5, 12-13. Wall affirmed
that he was pleading guilty of his own free will and that he was
satisfied with his attorney’s representation. Id. at 3, 5. Further, the
trial court informed Wall about the maximum possible sentence
and thereafter, imposed the negotiated sentence. Id. at 4, 10.
Based upon our review of the totality of the circumstances,
we conclude that Wall knowingly and voluntarily entered the
guilty plea. Wall has not argued or demonstrated that plea
counsel’s alleged errors caused him to tender an unknowing and
involuntary plea. See PCRA Court Opinion, 7/10/15, at 5. Indeed,
Wall accepted the factual basis of the guilty plea and admitted to
committing aggravated assault. Moreover, Wall confirmed that he
understood the rights he was foregoing by pleading guilty,
indicated that he was pleased with the representation of counsel,
and stated that no one had coerced him into pleading guilty. In
light of the guilty plea colloquy, we conclude that Wall knowingly
and voluntarily entered the guilty plea, and that Wall’s claims of
ineffective assistance of plea counsel do not entitle him to relief.
Pa. Super. Ct., slip opin. at 7-9 (citations to state cases omitted).
The Superior Court’s analysis does not reflect an unreasonable application of Strickland v.
Washington or Hill v. Lockhart. Wall put himself in a situation in which he faced a severe
sentence if he took his case to trial. He was charged with eleven crimes arising from his conduct
of March 1, 2013 against a woman whom he had criminally stalked previously. His lack of
remorse for his actions, which would likely affect him negatively at sentencing, was further

20

Case 2:16-cv-06273-NIQA Document 22 Filed 08/23/18 Page 21 of 23

reflected in the threatening letter he sent the victim from jail a month later.9 As a result of
Attorney Kilroy’s negotiations for a guilty plea, the District Attorney agreed to drop every
charge except aggravated assault.

If Wall had been convicted of every original charge, his

potential exposure was an aggregate prison sentence of 53 to 106 years. His negotiated plea
involved a sentence of only 5 to 10 years.
Based on Attorney Kilroy’s ability to drastically reduce both Wall’s prison sentence and
total charges, we conclude that Wall cannot satisfy the first prong of the Strickland test. Our
review of the record informs our conclusion that Attorney Kilroy’s performance did not fall
below an objective standard of reasonableness considering Wall’s significant criminal exposure
and the likelihood that the incriminating letter Wall sent to Ms. Johnson would not have earned
him any leniency at sentencing. Moreover, the colloquy reflects that Wall was satisfied with
Attorney Kilroy’s representation. See N.T. 6/10/13 at 3. See also id: at 4 (Wall’s confirmation
to court that he reviewed written guilty plea form with Attorney Kilroy prior to the oral colloquy).
To be sure, Wall and Attorney Kilroy were in court just a month later on his VOP hearing from
the 2012 case, and Wall in no way suggested there was any misunderstanding or dissatisfaction

9 When the Common Pleas Court judge with supervision over Wall’s 2012 case presided over
the violation of probation hearing in July 2013, he imposed a further sentence upon Wall and
explained that it was based on Wall’s conduct from March 1, 2013 against the same complainant,
but also independently based upon the letter Wall sent to her. He described it as “an absolutely
gruesome, threatening letter which is so horrendous, I can’t even begin to read it in open court,
it’s just inappropriate for reading.” He noted that “the language is so threatening, so crude, so
inappropriate,” and noted that the letter, apart from all of the curse words used, “talk[ed] about
... hunting her down like a hungry lion out of a jungle and breaking her face, and ... about
breaking her hands, talking about torturing her, ... breaking her mouth, it’s such a gruesome
intent on your part[.]” N.T. VOP Hr’g, 7/11/13 at 28 (No. CP-51-CR-6889-2012) [Doc. 14-4].

21

Case 2:16-cv-06273-NIQA Document 22 Filed 08/23/18 Page 22 of 23

with Kilroy’s representation in the case that constituted the violation of his supervised release in
his 2012 case. See N.T. VOP Hr’g 7/11/13 (No. CP-51-CR-6889-2012) [Doc. 14-4].
Based on the above, it is clear that the state court reasonably applied Strickland when it
adjudicated Wall’s claim of ineffective assistance of counsel concerning the performance of
Attorney Kilroy when counseling Wall about the plea offer. As the state court reasonably
determined that Attorney Kilroy’s performance was not deficient, Wall may not obtain habeas
relief here. See 28 U.S.C. § 2254(d).
IV.

CONCLUSION
For the reasons discussed above, we have determined that Wall has not presented any

claims that warrant habeas relief. His claims in Ground One, asserting violations of the Fourth
Amendment, are not cognizable where the petitioner had an opportunity to litigate them in state
court before he opted to enter his guilty plea. His assertions in Ground Two that implicate his
PCRA proceedings are non-cognizable as our habeas analysis may only involve proceedings
leading up to Wall’s original conviction.

The remainder of Wall’s Ground Two claims,

nominally asserting violations of the Fourteenth Amendment, are procedurally defaulted, and as
discussed, the record does not reveal that Wall could establish cause and prejudice or that a
miscarriage of justice would result from our failure to review them. The claims Wall asserts at
Ground Three, that his Fifth Amendment rights were violated when the District Attorney failed
to introduce evidence demonstrating witness intimidation, is procedurally defaulted and without
merits as to his conviction only of aggravated assault. Finally, certain claims asserted as Ground
Four are procedurally defaulted or without merit and the remainder, asserting ineffective
assistance of counsel, cannot give rise to relief given that the state courts reasonably applied the
Strickland standard when it considered and rejected this claim.

22

Case 2:16-cv-06273-NIQA Document 22 Filed 08/23/18 Page 23 of 23

Pursuant to Local Appellate Rule 22.2 of the United States Court of Appeals for the Third
Circuit, at the time a final order denying a habeas petition is issued, the district judge is required
to make a determination as to whether a certificate of appealability (“COA”) should issue.
Under 28 U.S.C. § 2253(c), a habeas court may not issue a COA unless “the applicant has made
a substantial showing of the denial of a constitutional right.” See also Slack v. McDaniel, 529
U.S. 473, 484 (2000). As to claims that are dismissed on procedural grounds, the petitioner
bears the additional burden of showing that jurists of reason would also debate the correctness of
the procedural ruling. Id. Here, for the reasons set forth above, we do not believe a reasonable
jurist would find the court to have erred in denying the present petition. Accordingly, we do not
believe a COA should issue.
Our Recommendation follows.
RECOMMENDATION
AND NOW, this 23rd day of August, 2018, it is respectfully RECOMMENDED that the
petition for a writ of habeas corpus be DENIED AND DISMISSED.

It is FURTHER

RECOMMENDED that a certificate of appealability should NOT ISSUE, as we do not believe
that Petitioner has demonstrated that reasonable jurists would find the correctness of the
procedural aspects of this Recommendation debatable nor debate whether his petition states a
valid claim.
Petitioner may file objections to this Report and Recommendation. See Local Civ. Rule
72.1. Failure to file timely objections may constitute a waiver of any appellate rights.
BY THE COURT:
Is/ David R. Strawbridge. USMJ
DAVID R. STRAWBRIDGE
UNITED STATES MAGISTRATE JUDGE

23

)

pafetlCy-l'S-ZO

)

Z
&

7

si

_>

Pursuant to Local Appellate Rule 22.2 of the United States Court of Appeals for the Third
Circuit, at the time a final order denying a habeas petition is issued, the district judge is required
to make a determination as to whether a certificate of appealability ( COA ) should issue.
Under 28 U.S.C. § 2253(c), a habeas court may not issue a COA unless “the applicant has made
a substantial showing of the denial of a constitutional right.” See also Slack v. McDaniel, 529
U.S. 473, 484 (2000). As to claims that are dismissed on procedural grounds, the petitioner
bears die additional burden of showing that jurists of reason would also debate the correctness of
the procedural ruling. Id. Here, for the reasons set forth above, we do not believe a reasonable
jurist would find the court to have erred in denying the present petition. Accordingly, we do not
'i

believe a COA should issue.
Our Recommendation follows.
RECOMMENDATION
AND NOW, this

XX

day of August, 2018, it is respectfully RECOMMENDED

that the petition for a writ of habeas corpus be DENIED AND DISMISSED. It is FURTHER
RECOMMENDED that a certificate of appealability should NOT ISSUE, as we do not believe
that Petitioner has demonstrated that reasonable jurists would find the correctness of the
procedural aspects of this Recommendation debatable nor debate whether his petition states a
valid claim.
Petitioner may file objections to this Report and Recommendation. See Local Civ. Rule
72.1. Failure to file timely objections may constitute a waiver of any appellate rights.
BY THE COURT:

Ao its
DAVID R. STRAWBRIDGE
UNITED STATES MAGISTRATE JUDGE

23

Ex.C

CIVIL ACTION
RAMON WALL,
Petitioner,
v.
!

NO. 16-6273
MS LUTHER, et. al.
Respondents.
ORDER
AND NOW, this

,2018, upon careful and

day of

independent consideration of the pleadings

p-nd available state c

to Report and Recommendation of United States Magnate

ourt records, and after review of

Judge David R. Strawbridge, it is

ORDERED that.
V,

.-

1.

The Report and Recommendation

is APPROVED and ADOPTED;

is DENIED AND DISMISSED,
2 The petition for a writ of habeas corpus is
3 A certificate of appealability SHALL NOT issue, in that the Petitioner has not made a

'V
i

I

howing of tde denial of a constitutional right nor demonstrated that reasonable jurists
substantial s
ctness of the procedural aspects of this ruling. See 28 U,.C. § 2253(c)(2);
would debate the corre
Slack v. McDaniel, 529 U.S
4. The

. 473,484 (2000); and

Clerk of the Court shall mark this case

CLOSED for statistical purposes.

BY THE COURT:

NTTZAI. QUINONES ALEJANDRO,

J. ^

J-S74040-19

NON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P. 65.37
COMMONWEALTH OF PENNSYLVANIA

:
:

IN THE SUPERIOR COURT OF
PENNSYLVANIA

v.

RAMON WALL
Appellant

No. 3618 EDA 2018

Appeal from the PCRA Order Entered November 30, 2018
In the Court of Common Pleas of Philadelphia County Criminal Division at
No(s): CP-51-CR-0006889-2012

BEFORE: t BENDER, P.J.E., MURRAY, J., and STEVENS, P.J.E.*
MEMORANDUM BY STEVENS, P.J.E.:

FILED FEBRUARY 26, 2020

Appellant, Ramon Wall, appeals from the order entered by the Court of
Common Pleas of Philadelphia County dismissing his first petition filed under
the Post Conviction Relief Act ("PCRA") seeking reinstatement of his direct
appeal rights nunc pro tunc. We affirm.
The PCRA court sets forth the facts and procedural history of the case,
as follows:
On July 24, '2012, Ramon Wall ("Defendant") [hereinafter
"Appellant"] entered into a negotiated plea to one count of
stalking the victim, his former girlfriend Chemyra Johnson.^ [The
trial court] sentenced Appellant to a term of six to twenty-three
months' incarceration and three years consecutive probation. On
the same day, the trial court issued a protective order against
Appellant on behalf of the victim. Appellant received credit for
time served and was released from incarceration by an order of
the trial court on November 15, 2012.
V
* Former Justice specially assigned to the Superior Court.

EX. p

J-S74040-19

On March 2, 2013, Appellant was arrested for choking and
repeatedly striking the same victim, his girlfriend, Chemyra
Johnson. While in custody awaiting trial, Appellant sent the victim
a letter threatening her physical safety. On June 10, 2013,
Appellant appeared before Judge Genece Brinkley and pled guilty
to the charge of Aggravated Assault. Judge Brinkley sentenced
Appellant to five to ten years' incarceration followed by five years
consecutive probation.
On June 13, 2013, the Commonwealth filed a Motion to revoke
Appellant's probation. [After a Violation of Probation ("VOP")
hearing, the trial court granted that Motion on July 11, 2013, and
re-sentenced Appellant to three to six years' incarceration, to run
consecutively to Judge Brinkley's five to ten year sentence. [On
July 18, 2013, Appellant filed a counseled post-sentence motion
to vacate and modify the sentence, which sought a reduction in
sentence and the imposition of concurrent rather than consecutive
sentences. The motion was denied by operation of law.]
On December 3, 2013, Appellant filed identical PCRA Petitions
before the PCRA court and before Judge Brinkley [the latter being
later dismissed] . . . alleging his trial counsel, Jeffrey Kilroy, Esq.
was ineffective and that Appellant was improperly induced to
plead guilty.
On [September 28, 2017], Appellant filed [a
supplemental] amended petition with the PCRA court alleging[,
inter alia,] that Mr. Kilroy was ineffective for failing to inform
Appellant that the trial court denied his Motion for Reconsideration
of Sentence.
On April 27, 2018, Mr. Cotter appeared before the PCRA court and
made oral arguments on the issue of ineffectiveness related to
failure to file the appeal. On November 30, 2018, the PCRA court
held an evidentiary hearing on this issue.
At this hearing, Mr. Kilroy testified that his failure to file an appeal
on Appellant's behalf was the result of a discussion of strategy
ultimately endorsed by Appellant, which favored the filing of a
Motion for Reconsideration. Appellant testified that Mr. Kilroy did
not discuss post-trial strategy with him.
The PCRA court ultimately found Mr. Kifroy's testimony credible as
to the nature of his discussions of post-conviction strategy with
the Appellant, denied Appellant's PCRA, and declined to reinstate
- 2 -

J-S74040-19
Appellant's appellate rights nunc pro tunc. (N.T. 11/30/18, at 47).
Appellant filed this appeal on December 12, 2018.
PCRA Court Opinion, 8/14/19, at 1-3.
Appellant raises the following issue for our review:
Did the trial court err in denying Appellant an appeal nunc pro
tunc from the sentence imposed at a violation of probation hearing
due to ineffective assistance of counsel at the hearing?
Appellant's brief, at 2.
"[W]e review a denial of PCRA relief to determine whether the findings
of the PCRA court are supported by the record and free of legal error."
Commonwealth v. Orlando, 156 A.3d 1274, 1280 (Pa.Super. 2017)
(quoting Commonwealth v. Treiber, 632 Pa. 449, 121 A.3d 435, 444

(2015)).

A PCRA court's credibility findings are to be accorded great

deference, and where supported by the record, such determinations are
binding on a reviewing court. Commonwealth v. Abu-Jamal, 720 A.2d 79,
99 (Pa. 1998). A PCRA court's legal conclusions, however, are reviewed de
novo . Commonwealth v. Chmiel, 30 A.3d 1111, 1127 (Pa. 2011).
We presume that the petitioner's counsel was effective, and a petitioner
bears the burden of proving otherwise. Commonwealth v. Williams, 732
A.2d 1167, 1177 (Pa. 1999). In assessing Appellant's ineffectiveness claim/
we apply the well-settled test enunciated in Strickland v. Washington, 466
U.S. 668 (1984) and adopted in Commonwealth v. Pierce, 527 A.2d 973,
975 (Pa. 1987):
To prevail on an ineffectiveness claim, appellant must establish:
(1) the underlying claim has arguable merit; (2) no reasonable
- 3 -

J-S74040-19
basis existed for counsel's actions or failure to act; and (3)
[appellant] suffered prejudice as a result of counsel's error such
that there is a reasonable probability that the result of the
proceeding would have been different absent such error.
Commonwealth v. Fears, 86 A.3d 795, 804 (Pa. 2014). The failure to prove
any one prong is cause alone for dismissal of the claim without the need to
determine whether the other two prongs have been met. Commonwealth
v. Basemore, 744 A.2d 717 (Pa. 2000).
^ Appellant's ineffectiveness claim charges that VOP counsel improperly
advised him regarding his appellate rights by advocating against the filing of
a direct appeal, which, counsel maintained, would divest the VOP court of
jurisdiction to grant Appellant's motion for reconsideration,

This Court has

recognized "it is evident that incorrect advice or failing to properly advise a
client can be grounds for an ineffectiveness claim."

Commonwealth v.

Markowitz, 32 A.3d 706, 716 (Pa.Super. 2011) (citing Commonwealth v.
Lantzy, 736 A.2d 564, 572 (Pa. 1999); Commonwealth v. Boyd, 688 A.2d

1172, 1175 (Pa. 1997) (failure to properly explain the advantages and
disadvantages of accepting or rejecting a plea offer may be ineffective
assistance of counsel), overruled on other grounds, Commonwealth ex rel.
Dadario v. Goldberg, 565 Pa. 280, 773 A.2d 126 (2001)).
When consulting with a defendant about appellate rights, counsel must
"advis[e] the defendant about the advantages and disadvantages of taking an
appeal, and mak[e] a reasonable effort to discover the defendant's wishes.
Commonwealth v. Green, 168 A.3d 173, 176 (Pa.Super. 2017) (quoting
Roe v. Flores-Ortega, 528 U.S. 470, 478 (2000)). Prejudice is shown where
-4-

J-S74040-19

a petitioner can establish that, but for counsel's erroneous advice, he would
have filed a direct appeal.

Green, 168 A.3d at 179.

Upon satisfying the

three-prong ineffectiveness test, a petitioner is entitled to the reinstatement
of his direct appeal rights nunc pro tunc. Id. See also Markowitz, 32 A. 3d
at 717.
Initially, we note Appellant fails to develop a requisite prejudice prong
argument in his appellate brief, stating only, "The trial court's position stated
on page 3 and 4 of its opinion that the defendant must show prejudice is
erroneous." See Appellant's brief at 7-8.1

For Appellant's failure to plead

and prove the prejudice prong of the Strickland/Pierce test, waiver applies
to this issue.

Pa.R.A.P. 2119(a)-(b); See Commonwealth v. Steele, 961

A.2d 786 (Pa. 2008) (holding when petitioner fails to properly plead or develop
a prong , the petitioner is not entitled to relief and the court may find the claim
waived for lack of development).

Even if waiver did not apply, this appeal

would still fail, as we discern no arguable merit to Appellant's claim of
ineffective assistance of VOP counsel.
1 In certain limited circumstances, including the actual or constructive denial
of counsel, prejudice may be so plain that the-cost of litigating the issue of
prejudice is unjustified, and a finding of ineffective assistance of counsel per
se is warranted." Commonwealth v. Rosado, 150 A.3d 425, 429 (Pa.
2016).
This exception applies in cases where counsel actually or
constructively denied a defendant his right to appeal, such as where counsel
neglects to file or perfect a requested appeal. Id. at 430-431 (citing Lantzy,
736 A.2d at 566. As discussed supra, however, the present case involves
whether counsel rendered erroneous legal advice against filing a requested
direct appeal, an issue for which we employ the three-prong ineffectiveness
test. See Green, supra; Markowitz, supra.
- 5 -

J-S74040-19

Appellant maintains in his brief that VOP counsel supplied Appellant with
erroneous legal advice regarding post-sentence and direct appeal rights that
caused Appellant to abandon his initial request for a direct appeal. This is so,
Appellant contends, because VOP counsel told Appellant that he "could either
file an appeal or post sentence motions and that the chances of winning on
appeal were slim. Counsel never informed [Appellant] . . . that even if counsel
believed [Appellant] would not win on appeal [Appellant] still had the right to
file an appeal." Appellant's brief7 at 7.2
At the PCRA hearing, PCRA counsel asked VOP counsel, who had nine
years' experience with the Defenders Association of Philadelphia at the time
of the VOP hearing in question, about his consultation with Appellant:
PCRA COUNSEL: The question I want to ask you is, after the
hearing did you ever discuss Appellant's appeal rights with him,
post-sentence rights - let's put it that way - his post-sentence
rights with him after the hearing?
VOP COUNSEL:
Q:

I did.

Okay. Where did you do that?

2 Appellant failed to articulate this claim in his counseled amended petition of
September 28, 2017, in which he based the allegation of ineffectiveness only
on VOP counsel's failure to notify Appellant that his post-sentence motion had
been denied.
At the PCRA hearing, however, PCRA counsel developed for the courts
consideration the discrete claim that counsel ineffectively deprived Appellant
of proper consultation at the outset of the post-sentence phase by failing to
discuss the pros and cons of pursuing only a post-sentence motion and
foregoing a direct appeal, PCRA counsel, therefore, preserved this claim
below.
- 6 -

J-S74040-19

In the booth after the hearing. If I'm correct, His Honor was
A:
sitting in Courtroom 501 at the time.
Q:

Okay. And what, if anything, did you discuss with him?

A:
So I knew - Mr. Wall had explained to me that he was
unhappy with the fact that the sentence was ran [sic] consecutive
to the negotiated sentence that he - that I got for him on the
other case. I explained to him that in my opinion, I didn't believe
there was anything illegal about the Judge's sentence and,
therefore, his chances of success on direct appeal to the Superior
Court were very slim.
I believed that if he had a chance of getting, A, a reduced sentence
or B, a sentence ran [sic] concurrent, that his best option would
be" a motion to reconsider sentence. And that was because of the
content and some of the things that were brought out at the VOP
hearing.
I explained to him that unlike a normal - what we call an active
case - the post-sentence, the motion to reconsider sentence, does ■
not toll the appeal period. Therefore, if he chose to file an appeal
before Judge Cohen ruled or considered his motion to reconsider
sentence, Judge Cohen would lose jurisdiction to rule on a
sentence. And his only recourse would be a direct appeal.
And,once again, it was my advice that he would not be successful
in that venture.
Q:
Okay. So whose idea was it to file? There was a motion to
reconsider filed; is that correct?
A:

That is correct, at Mr. Wall's request.

And correct me if I'm wrong, but the docket shows no appeal
Q:
was filed; is that correct?
A:

No, that is correct.

0:
Even though you could've filed the post-sentence motion,
the post-sentence motions, giving the Judge an opportunity of five
to ten days to decide and take an appeal from there; is that
correct?
- 7 -

J-S74040-19

A:

I could have done that; that is correct. I did not do that.

Q:

Okay. I have no further questions.

ASSISTANT DISTRICT ATTORNEY: And why didn't you do that?
A:
Because, as I stated earlier, I believe because of what had
occurred at the VOP hearing, no disrespect to His Honor, if His
Honor had a chance to cool down, maybe he would have given Mr.
Wall some reconsideration and maybe even reduced the sentence
or agreed to run it concurrently with the sentence he was currently
serving.
Q:
And, Mr. Kilroy, based on your advice, did Appellant agree
with you and did not ask you to file an appeal?
That is correct. He did not ask me to file an appeal. He
A:
asked me to file a motion to reconsider the sentence upon my
advice. That is what I advised him to do.

PCRA COUNSEL: Your advice was not to file an appeal; is that
correct?
A:

Correct. I believed it would be unsuccessful.

THE COURT:
Mr. Kilroy. Do understand or do you recall at
this point what had happened at the hearing that you though
would make it more likely that I would reconsider rather than file
an appeal?

There was a letter that Mr. Wall wrote to the complainant
A:
while he was in custody that was attached to the . . .
Your Honor
Commonwealth's motion to revoke probation.
However, the contents of that letter were
mentioned it.
disturbing. And that's putting it lightly.
- 8 -

J-S74040-19

Your Honor, among many things, it said things like: I am going
to hunt you down like a lion. I am going to break your hands. . .
Your Honor, I don't wish to go into it any further, but it was
along those lines.
So what was your thought process, if you would,
THE COURT:
about why I meant — as a judge I would more likely reconsider
my sentence because of that letter?
Your Honor, because I've been before you a couple of times.
A:
I know you'd be a fair jurist. And I think upon the initial reading
of the letter - when I first read the letter, I was offended by it.
And I Honestly -I want to help Mr. Wall. And I hope I did help
him in what I did. And I just thought that Your Honor was a fair
jurist.
And maybe after some time, after just sitting back and reflecting,
that maybe you would say, 'Okay. Mr. Wall wrote this in a
moment of anger, which is what I argued before Your Honor, And
maybe I can cut him a break now that I calmed down.

THE COURT:

Okay. That makes sense. Thank you Mr. Kilroy.

N.T. at 22-29.
PCRA counsel began argument first by positing that VOP counsel
committed per se ineffectiveness by altogether failing to discuss Appellant's
appeal rights. PCRA counsel conceded the trial court's observation, however,
that such an argument would prevail only if the court credited Appellants
testimony that counsel never discussed his direct appeal rights:
PCRA COUNSEL: You have to accept the credibility of my client,
Judge. I agree with that. So, there's a credibility issue here, one,
the [VOP] attorney and one of the defendant's. Accepting my

-9 -

J-S74040-19
client's credibility, the defense attorney had the obligation to
discuss the appeal because the defendant was dissatisfied.
N.T. at 31-32.
The court did not credit Appellant's testimony in this regard, electing
instead to credit VOP counsel's specific recollection that he discussed appellate
rights and advised Appellant, in a face-to-face conversation immediately after
sentencing, that, in his opinion, a direct appeal carried only a slim chance of
vacating the consecutive sentences about which Appellant complained, It was
based on counsel's advice, counsel stated, that Appellant retracted his request
for a direct appeal. N.T. at 23-24.
PCRA counsel countered that, even if the court credited counsel s
testimony, Flores-Ortega, supra, required counsel to discuss the "pros and
cons" of a direct appeal:
There are no cons to an appeal in this case because you take the
case up to the Superior Court, If they say it's a reasonable
sentence, it's over. The Superior Court can't give him more time
[because Appellant was sentenced to a maximum sentence]. . . .
So there's no con to this appeal. [He's] not going to get more
time."
N.T. at 32. Counsel never advised Appellant of this fact, counsel maintained.
The PCRA court found, however, that VOP counsel identified a legitimate
disadvantage to filing a direct appeal in the case sub judice. Specifically, VOP
counsel

advised

Appellant that because

a

post-sentence

motion for

reconsideration of a revocation sentence does not toll the 30-day direct appeal

- 10 -

J-S74040-19

period,3 timely filing the direct appeal while his post-sentence motion was
pending would divest the VOP court of jurisdiction and thereby cause him to
forego the better chance at a revised sentence run concurrently. N.T. at 24.
Therefore, the court determined that VOP counsel reasonably discussed the
-a

pros and cons of filing a direct appeal during the pendency of a post-sentence
motion in this matter, contrary to Appellant's assertion.
PCRA counsel responded that VOP counsel could have filed a post­
sentence motion and, if the VOP court failed to grant reconsideration or
withdraw sentence within 29 days, file a timely direct appeal on the 30th, and
final, day of the Pa.R.Crim.P. 708 appeal period pertaining to revocation
judgments of sentence. N.T. at 41.
The Court countered, however, that it had decided motions to reconsider
revocation sentences on the 30th day "many times .... So the court cannot
agree. But the court has no - the last time I did that was probably within the
last month or two. It was done that last day that I ruled on the motion for
reconsideration. So yes." N.T. at 44. The court, therefore, rejected PCRA
counsel's contention that there were no disadvantages to filing a direct appeal,

3 Like most other appeals, an appeal from a sentence imposed after revocation
of probation must be filed within 30 days after imposition of the new sentence.
See Pa.R.App.P. 903(a). In contrast to other sentencing situations in which
the filing of a post-sentence motion extends the appeal period until after the
motion has been decided, see Pa. R. Crim. P. 720(a)(2), the filing of a motion
to modify a sentence imposed after revocation of probation will not toll the
30-day appeal period. Pa. R. Crim. P. 708(E). Commonwealth v. Flowers,
149 A.3d 867, 871 (2016).
- 11 -

J-S74040-19

for one was the risk of divesting the trial court of jurisdiction to reconsider the
sentence the moment the appeal is filed.
Given this record, and in consideration of governing authority, we
discern no error with the PCRA court's determination that VOP counsel
appropriately discussed with Appellant the pros and cons of pursuing a post­
sentence motion for reconsideration of sentence and foregoing a direct appeal
so as not to divest the trial court of jurisdiction. N.T. at 43-44.

As such, we

decline to find counsel provided constitutionally deficient consultation by
rendering such advice.
Counsel's advice reflected not a misunderstanding or misrepresentation
of relevant law, but, instead, counsel's reasonable opinion—informed by the
particular facts of the case—that the better prospect for obtaining a revised
sentence run concurrently rather than consecutively lay in a motion for
reconsideration filed with the VOP court. When one considers our well-settled
jurisprudence,

moreover, declining discretionary review of consecutive

sentences unless they are "so manifestly excessive in extreme circumstances
that it may create a substantial question," Commonwealth v. Edwards, 71
A.3d 323, 330 (Pa.Super. 2013), we cannot say counsel's advice was
unreasonable, particularly where the consecutive sentences here involved
separate acts in which violence or threat of violence was involved.

- 12 -

J-S74040-19

Accordingly, as Appellant failed to show that counsel's advice improperly
caused him to forego his appellate rights, we discern no error with the PCRA
court's order denying relief.4
Order affirmed.
Judgment Entered.

\J0.
7

Joseph D. Seletyn, Es^k
Prothonotary

Date: 2/26/20

4 To the extent Appellant presents a second aspect to his claim in which he
argues counsel ineffectively failed to notify him of the denial of his post
sentence motion, it is without merit. The record shows the VOP court denied
the post sentence motion by operation of law, at which time Appellant's 30day period to file a direct appeal would have already expired. Therefore,
though we do not condone counsel's failure to notify Appellant of the denial of
the motion, counsel may not be deemed ineffective where no prejudice flowed
from the omission.
- 13 -

r-

FILED
JUN 0 3 2015
.7.

IN THE COURT OF COMMON PLEAS
FIRST JUDICIAL DISTRICT OF PENNSYLVANIA
CRIMINAL TRIAL DIVISION

Post Trial Unit

CP-51-CR-0005311-2013

COMMONWEALTH

v.

RAMON WALL
ORDER

AND NOW, this

day of

,2015, pursuant to

Commonwealths. Finley, 550 A.2d 213 . Super. 1988., it is hereby ORDERED AND
DECREED that following an independent review of Defendant’s Pro Se PCRA Petition,
„■

Counsel’s Finley letter, and 907 Notice having been sent and Defendant’s reply to 907 Notice
having been received and reviewed Petitioner’s Post Conviction Relief Act Petition is
DISMISSED, based upon Counsel’s Finley letter. Defense attorney John Cotter, Esquire is
permitted to withdraw from further representation of Petitioner. Petitioner may, however,
proceed on appeal on a pro se basis or with retained counsel. Appeals must be filed within
thirty (30) days of the entry of this order at: Appellate Division, 206 Criminal Justice center,
1301 Filbert Street, Philadelphia, PA 19107.

BY THE COURT:

7

Ex.

J.

jzi

IN THE SUPREME COURT OF PENNSYLVANIA
EASTERN DISTRICT

No. 324 EAL 2016

COMMONWEALTH OF PENNSYLVANIA,
Respondent

Petition for Allowance of Appeal from
the Order of the Superior Court

v.

RAMON WALL,
Petitioner
ORDER

PER CURIAM
AND NOW,

this 24th day of October, 2016, the Petition for Allowance of Appeal

is DENIED.

^fl^/2016

Attest:
John WMisrson Jr., bsquirs^/
Deputy Prothonotary
Supreme Court of Pennsylvania

5X.JP"2- i

HIED DEC 14 2016

RAMON WALL,

Petitioner
CIVIL ACTION NO. 16-CV-6273

v.
ROBERT GILMORE, et al.,

Respondents.
ORDER

AND NOW this

///

A

that the above captioned case is referred to the
Ma

IT IS HEREBY ORDERED

dayof

Honorable David R. Strawbridge, United Slates

gistrate Judge, for a Report and Recommendation, and

Local Civil Rule 72.1.IV(c), all issues and
IT is FURTHER ORDERED that as per
United States Magistrate Judge, and that new issues and
evidence shall be presented to the
d Recommendation if they could have
not
be
raised
after
the
filing
of
the
Report
an
shall
evidence
been presented to the United States Magistrate Judge.

BY THE COURT:

NITZAL QUINONES-ALEJANDRO,

S0

OFCOtftf

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
RAMON WALL,
Petitioner,

CIVIL ACTION
. •

V.

MS. LUTHUR, et al.,
Respondents.

NO. 16-6273

r

lh

ORDER

AND NOW, this /cT day of December, 2016, upon consideration of the petition
for a writ of habeas corpus and the order of referral from the Honorable Nitza I. Quinones
Alejandro, IT IS ORDERED that:
1. The Clerk of this Court SHALL SERVE upon the Dis trict Attorney of
Philadelphia County a copy of the form Petition for a Writ of Habeas Corpus, with all attachments
(Doc. No. 1):
2. The Clerk of this Court SHALL SERVE a copy of this Order upon the District
Attorney of Philadelphia County and the Office of the Prothonotary of the First Judicial District of
Pennsylvania;
i

3. The District Attorney of Philadelphia County SHALL FILE an answer and
memorandum of law with supporting exhibits pursuant to Rule 5 fol. 28 U.S.C. § 2254 on or
before February 1, 2017;
4. Should Petitioner wish to file a Reply to the Respondents’ Answer, he must do
so within thirty (30) days after service of the Answer; and
5. The Office of the Prothonotary SHALL FILE with the Clerk of this Court on
or before February 1, 2017 copies of ALL RECORDS, INCLUDING transcripts of Notes of

entered
DEC 1 6 2016
CLERK OF COURT

1

Testimony at Arraignment, Trial

, Sentencing, Suppression Hearings, Post-Conviction Hearings,
and Briefs of State Court proceedings in the matter of

Petitions, Pleadings, Opinions
rcmmonwealth v. Ramon Wall, No.

CP-5l-CR-0005311-2013 (convicted June 10,2013).
\

BY THE COURT:

DAVID R. STRAWBRIDGED
UNITED STATES MAGISTRATE JUDGE

2

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF PENNSYLVANIA
GTVIL ACTION

RAMON WALL
Petitioner-pro se

NO. 16-6273

v.

MS. LUTHER, et aL
Respondents

m 11 2019
ORDER

AND NOW, this 11th day of January 2019, upon careful consideration of the pro se petition
; for writ of habeas corpus, (the “Petition”), filed by Petitioner Ramon Wall (“Petitioner”) pursuant
/ to 28 U.S.C. §2254, [ECF 1], the response filed by Respondents, [ECF 14]; the reply filed by
Petitioner, [ECF 20], the Report and Recommendation (the “R&R”) issued on August 23, 2018,
by the Honorable David R. Strawbridge, United States Magistrate Judge (the “Magistrate Judge”),
which recommended that the Petition be denied, [ECF 22], Petitioner’s pro se objections to the
R&R, [ECF 28], the pleadings, and the available state court record and, after conducting arv
independent de novo review of the objections, it is hereby ORDERED that:
1.
2.

The Report and Recommendation is APPROVED and ADOPTED;
The objections filed are without merit and are’OVERRULED;1
!

1

In his habeas corpus petition, Petitioner asserted four grounds for relief: (l)thathis conviction

of confrontation, that his plea bargain improperly reflected a mandatory minimum
*
counsel was ineffective for failing to investigate the Commonwealth s evidence and for allegedly ly g
about a colloquy having taken place. In the twenty-three page R&R, the Magistrate Judge addressed th
contentions and^ound that all of Petitioner’s claims were either procedurally defaulted, non-cogmzable, or
lacked merit.
In his objections to the R&R, Petitioner essentially concedes that the Magistrate Judge correctly
found that many of his claims were procerjurally defaulted but repeats his argument that the procedural

/

EHTV jam 11 2019

/
i
!

Ex.B

3.

Petitioner’s petition for a writ of habeas corpus, [EOF 1], is DENIED;

4.

No probable cause exists to issue a certificate of appealability.2

and

The Clerk of Court is directed to mark this matter CLOSED.
BY THE COURT:

/JJLl

NITZA I- QUINONES alf.tan;
Judge, United States District Court

overruled

^

* *

d°P

O

and appr0ved m its en&ety, and Petitioner’s objections

denia, ofa^^ZLTg^Ys Sj2?

are

Sb°™<* of 4=

mcuamei, 529 U.S. 473, 484 (2000); Lambert v. Blackwell, 387 F 3d 210 230 (Id Cir ?nnl

S^=S=3£5SS52SiS

Slack, 529 U.S. at 484. Accordmgly. there ,s no basis for the issuance of a certificate of appealSi%!
2

Additional material
from this filing is
available in the
Clerk's Office.

